                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A10080064                                                                        Page 1 of 1




                  The National Science Foundation (NSF) Office oflnspector General (OIG) conducted an
          inquiry into an allegation that the Subject 1 submitted two NSF proposals2 containing plagiarism.
          We reviewed the proposals and confirmed they contained plagiarized material. We also identified
          plagiarism in three other NSF proposals 3 the Subject submitted and in one proposal the Subject's
          small business submitted, which the Subject acknowledged he himself authored. We concluded
          there was sufficient evidence to proceed with an investigation, which we conducted internally
          because the institution was a small business.

                  Our investigation concluded, based on the preponderance of the evidence, that the Subject
          recklessly committed plagiarism, deemed a significant departure from accepted practices of his
          professional community. We recommended actions to be taken to protect the federal interest. The
          Deputy Director concurred with our recommendations.

                  This memo, the attached Report oflnvestigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




          2




NSF OIG Form 2 ( 11 /02)
CONFIDENTIAL                                                                       CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                       Confidential
                  Report of Investigation
                 Case Number A10080064
                            August 15, 2011
                 This Confidential Report of Investigation is provided to you
                                   FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal cr:im.ffialliability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                              NSF OIG Form 22b (n/o6)
CONFIDENTIAL                                                                       CONFIDENTIAL


                                     Executive Summary

Allegation:          Plagiarism.

OIG Inquiry:         OIG idi:mtified 11 sources from which approximately 65lines, 3 figures,
                     and 4 references were apparently copied into 2 NSF proposals. The
                     Subject acknowledged having copied inadequately cited material into his
                     proposals.

OIG
Investigation:       OIG concluded, based on a preponderance of the evidence, that the
                     Subject recklessly committed plagiarism, and that the plagiarism
                     constituted a significant departure from accepted practices of his
                     professional community.


OIG
Assessment:
                 •   The Act: The Subject plagiarized 275 lines, 6 figures, and 13 references
                     from 34 sources into 6 proposals.
                 •   Intent: The Subject acted recklessly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 •   Pattern.: Six NSF proposals submitted by the Subject contain plagiarism.

OIG
Recommendations:
              •      Make a finding of research misconduct against the Subject.
              •      Send the Subject a letter of reprimand.
              •      Require certifications from the Subject for a period of 2 years.
              •      Require certification of attending a research ethics class within 1 year.




                                               1
CONFIDENTIAL                                                                                      CONFIDENTIAL


                                                 OIG's Inquiry

       OIG conducted an inquiry into an allegation that the Subject1 submitted two NSF
proposals (Proposal 12 and Proposal 23) containing copied text. Our initial analysis found
approximately 44lines, one figure, and four embedded references allegedly copied from six
sources in Proposall, and 211ines allegedly copied frorri five additional sources in Proposal2. 4

       OIG contacted the Subject about the allegation. 5 In his response, 6 the Subject
acknowledged he "did not properly cite or quote other authors' statements." 7 He noted that
Figures 3 and 4 in Proposal 2 were also "published by other researchers but not cited" 8 and that
two other proposals 9 submitted to NSF also contained inadequately cited text. He said the
copying was unintentional and attributed it to the way he prepares proposals:

                  I used to take notes from publications of other authors on the major
                  conclusions and key issues they raised and need to be solved. As
                  smne statements were tough to understand, I used paraphrase and
                  some time copied them to my notes for the following study. In
                  some cases I did denote the origin of the statements. When I
                  started to write proposals, I used to refer to my notes instead of the
                  original publications. [sic] 10     ·


He recently started to write proposals, he said, and:

                  I thought the idea's originality and creativity is the most important
                  things for a valuable proposal. My initial purpose is to use
                                                                        .    .  others
                  research results and statements to support my proposal's creativity.
                  I focused on the originality and creativity of the proposed idea.S to
                  much and omitted the fact that I have to properly cite and quote
                  others fmdings and statements. [sic] 11




                         Subject.
                      entitled· · · · · · · · · · · · · · · · · · · · · · · ·
                Subject.
  Tab 3: Sources A-K.
5
  Tab 4.
6
  Tab 5.
7
  Tab 5, pg 1.
8
  The Subject's response does not indicate the sources from which these figures were copied and our review of the
        could not         their




                                                         2
 CONFIDENTIAL                                                                             CONFIDENTIAL


 He said he realizes the seriousness now and has taken corrective actions, such as requiring
 review of proposals for proper citation and disallowing direct copying. 12     .


        Because the Subject acknowledged having copied inadequately cited material into his
 proposals, OIG determined there was sufficient evidence to proceed with an investigation. The
 following chart summarizes the copied text in Proposals 1 and 2:

                       Source                   Proposal!                  Proposal2
                                                (Awarded)                  _illeclined}
            A  (webpage)                                         8 lines
            B  (article)               12 lines, 1 figure, 4 references
            C  (article)                                         5 lines
            D  (article)                                         7lines
            E  (online dissertation)                             5 lines
            F  (webpage)                                         7lines
            G   (article)                                                               9lines
            H   (article)                                                            2.5 lines
            I (article)                                                              1.5 lines
            J (article)                                                                6lines
            K (webpage)                                                                2lines
            (unspecified) ·                                                          2 figures
            Total Unique Lines         44 lines, 1 figure, 4 references    21 lines, 2 figures

          Before initiating our formal investigation, we reviewed the Subject's NSF proposal
  submission record and found he submitted 12 proposals since 2008. All of the proposals were
  submitted as Small Business Innovation Research (SBIR)/Small Business Technology Transfer
  (STIR) program proposals. We reviewed five additional proposals, including the two proposals
  (Proposals 4 and 6 13 ) the Subject acknowledged contained copied material during the inquiry.
  As summarized in the chart below, we found 77 lines, 2 figures and 8 references copied from 6
                           14
. sources in Proposal3; 45 lines and 1 reference copied from 7 sources in Proposal4; 15 and 29
  lines copied from 5 sources in Proposal 5. 16        ·




                                                   3
CONFIDENTIAL                                                                                  CONFIDENTIAL



                                        Proposal3                      Proposal4 .           ProposalS
                  17
             Source                     (Declined)                     (Declined)            (Declined)
       L (article)                                         3 lines                4 lines
       M (article)                          3 lines, 3 references
       N (article)              33 lines, 2 figures, 5 references
       0 (article)                                         5 lines
       P (webpage)                                        25 lines                13 lines
       Q (webpag_e)                                        8 lines                 8 lines
       R (webpage)                                                               3.5 lines
       S (article)                                                    7 lines, 1 reference
       T (newsletter)                                                              6lines
       U (report)                                                                3.5 lines
       V (webpage)                                                                                 3 lines
       W (webpage)                                                                                 4lines
       X (article)                                                                                14lines
       Y (report)                                                                                3.5 lines
       Z (article)                                                                               4.5 lines
       Total Unique Lines   77 lines, 2 figures, and 8 references    45 lines, 1 reference       29lines

Proposal6, 18 though submitted by the same business, was submitted by a different company
employee (Employee) 19 as PI and is discussed further below. Proposal 720 contained de minimis
plagiarism and was removed from the present analysis.


                                              OIG Investigation

        Because the institution is a small business, we conducted our own investigation rather
than refer the matter to the institution. We informed the Subject of our investigation and asked
him to address the newly identified copied text and to respond to additional questions. 21 The
Subject replied   via
                    his attomey. 22

                                          Response to Investigation

        In the response, the attorney wrote that the business "does not deny that it copied material
from Source Documents L-Z into the proposals and acknowledges its error."23 He attributed the
copying to the Subject's methodology for writing proposals; to the business being "unaware[] of
the requirement to cite the same source multiple times throughout a proposa1;"24 and the
business's "focus on the innovation of its proposals and its goal to provide NSF with high quality


                        entitled· · · · · · · · · · · · · · · · · · · · · · · · · ·




     Tab 10.
22
23
   Tal;> 11. The Subject's attorney is· · · · · · · · · · · · · · ·
   Tab 11, pg 2.
24
   Tab 11, pg 2.


                                                         4
CONFIDENTIAL                                                                                 CONFIDENTIAL


proposals," which led the business to believe that "the originality and creativity of its ideas was
paramount to a valuable proposal."25

          The attorney said the Subject wrote Proposals 1 and 2 "without the assistance of anyone
  outside the company"26 and Proposals 3-5 were drafted by the business and "subsequently
  reviewed by subcontractors27 prior to submission to NSF." 28 He said the Subject "has not taken .
. a course on research ethics, has not been previously instructed regarding the definition of
  plagiarism, and has not engaged in any self-study of plagiarism."29 He attended only one
                                                                                   °
  meeting on drafting proposals, and does not use a particular style manual. 3 Further, he
  "understood plagiarism to be copying of another's ideas or concepts and affirmatively presenting
  the ideas or concepts as his own" and did not understand "that relying on previous concepts or
  ideas to reach new conclusions without proper citation would constitute plagiarism."31

       The attorney stated the business "never had any intent to plagiarize when submitting
proposals" to NSF, reiterating that:

                     The ultimate conclusions set forth in the proposals are original and
                     genuine and the sources upon which [the Subject] relied were
                     never intended to be presented as [the buSiness's] original ideas.
                     The sources were not cited in the interest of brevity and as a result
                     of [the business's] innocent neglect and ignorance of the citation
                     rules. 32      ·   ·


''Given the innocuous nature" of the action, he argued, the "mistake falls under the category of
'ordinary error' rather than 'research misconduct. "'33 To correct the research record and to
resolve NSF's concerns, he provided amended Proposals 1-5 34 "containing appropriate citation to
                                               35
the sources upon which [the business] relied."

           The attorney concluded that the business:

                     has taken corrective actions in order to ensure strict adherence to
                     the citation requirements for future submissions. [The business]
                     has instituted quality control procedirres for citation and quotation
                     checking and does not allow any proposals to be finalized prior to
                                                                                    36
                     properly citing any directly quoted or paraphrased materials.


25
     Tab 11, pg 2.


     Individuals from the··················
26
     Tab 11, pg 3.
27
28
   Tab   11, pg 3.
29
   Tab   11, pg 3.
30
   Tab   ll,,pg 3.
31
   Tab   11, pg 3.
32
   Tab   11, pg 1.
33
   Tab   11, pg 1.
34
   Tab   11, Exhibit A.
35
   Tab   11, pg 1.
36
   Tab   11, pg 6.


                                                       5
 CONFIDENTIAL                                                                                         CONFIDENTIAL




                                     Analysis o[Response to Investigation

        To evaluate the response, we first re-reviewed the location of the copied material in
Proposals 1-5. We noted the copied material was limited to background matter, product
descriptions, experimental methodology, and market potential. We .d id not find iriadequately
cited material within the description of the project being proposed, confirming the Subject's
claim regarding the novelty of the proposed idea. .

        Next, we reviewed the amended versions of Proposals 1-5 submitted with th~
investigation response. Although these versions would not resolve our concerns as the attorney
suggested, they could provide evidence that the Subject has gained a greater understanding of
appropriate citation practices. Our review of these newly annotated versions, however, indicated
the Subject still does not understand how to adequately cite material he incorporates into
proposals. Specifically, our review found that citations to the sources our office annotated were
simply added in after part or all oftheverbatim text. Verbatim text still lacked demarcation (e.g.,
                                  37
quotation marks or indentation); verbatim text was not £araphras,ed; citations often still were
not repeated after each segment copied from that source; 8 and embedded references remained
           39
embedded. Additionally, although the Subject himself informed us during the inquiry that
Figures 3 and 4 in Proposal 2 were also copied, these figures were not cited in the amended
versiOn.

        We then examined the Subject's current CV40 to assess his research and educational
background. The CV indicated the Subject received his Bachelor's, Master's and Ph.D. degrees
outside the United States. 41 However, it further showed that since 1999, all of his employment,
including a position as a postdoctoral assistant, 42 was in the United States. Similarly, it showed the
Subject served as co-author and/or primary author of20 publications, all of which were English-
language publications. 43                                                                        ·


       To determine the standards of the Subject's research community, we frrst examined the
                                                         45
standards of his previous two employers. 44 One employer does not include policies regarding
                                                            46
research misconduct on its website while the other employer did not have an active website.
We then reviewed the standards of the journal in which the Subject has most recently published:
the 2008, 2007, 2005, and 2002 proceedings of a professional society. 47 The society's
publication guidelines state:

37
   E.g., Proposal3, Source P.
38
   E.g., Proposal 4, Source P2.
39
   E.g., Proposal3, Source M~
40
   Tab 11, Exhibit B.

43
   Of these 20 publications, the Subject is first author of only six. Because all20 publications have multiple authors,
we did not examine.them for plagiarism as any copied text identified would be inconclusive regarding its author.
44
   Although                           currently does have a research misconduct policy and responsible conduct of
research          we could not confirm these standards were applicable during the Subject's postdoctoral service.




                                                           6
CONFIDENTIAL
                                                                                                     CONFIDENTIAL




                    Plagiarism constitutes unethical scientific behavior and is never
                    acceptable. Proper acknowledgment of the work of others used in a
                    research project must always be given. Further, it is the obligation
                    of each author to provide prompt retractions or corrections of ·
                    errors in published works. 48                             ·

                '
Given the field in which the Subject currently conducts research, the guidelines presented are
those under which the Subject should be knowledgeable. 49

                                                     Proposal6

       As explained above, in his initial inquiry response, the Subject said two other of his
company's NSF proposals also contained inadequately cited text. One of these proposals was
           50
Proposal 6, which the Employee submitted as PI. Our initial analysis found approximately 59
unique lines and one figure copied from eight sources 51 in Proposal 6, as illustrated below:

                                       Source                         Proposal6
                                                                      (Declined)
                           A   (webpage)                                            20 lines
                           B   (webpage)                                             8 lines
                           C   (webpage)                                             8 lines
                           D   (webpage)                                             2 lines
                           E   (patent-webpage)                           11 lines, 1 figure
                           F   (article)                                             3 lines
                           G   (webpage)                                             5 lines
                           H   (webpage)                                             2 lines
                           Total Unique Lines                             59 lines, I fi_glll"e

        As part of our review, we contacted the Employee, who responded via his attorney. 52
The res~onse 53 indicated the Subject drafted Proposal 6, provided the draft to the Employee for
editing, 4 and then submitted Proposal 6 with the Employee as PI. Specifically, the attorney
provided a copy of the draft the Subject provided the Employee, a copy of the proposal tracking
the changes the Employee made, and an email between the Subject and the Employee detailing
each segment's original version relative to the Employee's edits. 55 Based on the evidence and




              Subject's CV nor Biographical Sketch contains information about the Subject's professional society
             so we did not consider such standards in our analysis.
                         entitie41111111111111111111111111111111111111111111111111111
                         PI: Employee.
   Tab 13: Sources A-H.
52
   Attorney                                              , also represented the Employee.
53
   Tab 14.
54
   In his response, the attorney wrote: "In the proposal preparation process, [the Employee]'s role was to focus on
the scientific/technical merits and soundness of the proposal as well as English (spelling, typographical errors, and
clarity). Unfortunately, [he] did not pay close attention to the lack of citations."                         ·
55
   Tab 14.


                                                           7
 CONFIDENTIAL
                                                                                                   CONFIDENTIAL


 our analysis, we found that all of the copied material was containedwithout citation or
 demarcation in the draft document the Subject provided the Employee. Any changes the
 Employee made often served to (unknowingly) mitigate the copied text by either adding or
 removing words or strings of words from segments of verbatim copied text the Subject had
 inserted in the draft. As such, Proposal6 is included in the current analysis with the copied text
 attributed to the Subject.


                                               OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the.research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 56              .     ·


                                                     The Acts

       Our review round the Subject plagiarized 275 lines, 6 figures, and 13 references from
           57
34 sources into 6 proposals. OIG concludes the Subject's actions constitute plagiarism, as
described in NSF's definition. In offering material composed by others as his own, the Subject
misrepresented his own efforts and presented reviewers with a false representation of his
knowledge of the research area.

        OIG found the Subject's actions constituted a significant departure from accepted
practices ofhis professional community.

                                                      Intent

        We conclude the Subject acted recklessly in plagiarizing materiaL The Subject, who
operates within a very small business rather than academic context, lacked the oversight and
guidance needed to ensure the integrity of his proposals, a flaw he now recognizes and is taking
measures to correct. The Subject seemingly developed his grant-writing techniques in an ad hoc
manner, with no way of knowing the sufficiency or appropriateness of the practices, and no
apparent concern about that lack of knowledge. Last, the Subject's method of proposal
preparation- taking notes by copying verbatim text from others' publication without consistently
noting its·source - is itself a reckless way of incorporating others' ideas and words into one's
own proposal. We therefore conclude the Subject's actions were reckless.

                                               Standard o(Proo(

      OIG concludes that the Subject' s actions and intent were proven based on a
preponderance of the evidence.


56
  45 C.F.R. §689.2(c).
51
 Of the 34 sources, 15 were webpages, 15 were articles, 1 was an online dissertation, 1 was a newsletter, and 2
were reports. The unspecified source identified in Proposal 2 is not included in the total source count.


                                                         8
 CONFIDENTIAL
                                                                                    CONFIDENTIAL


    . _OIG concludes that_ ~e Subject, by a preponderance of the evidence, recklessly
plagiariZed, thereby comrmttmg an act of research misconduct. 58

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct NSF must
consider:                                                                          '
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other .
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 59

                                                   Seriousness

       The Subject's actions are a violation ofthe standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one's body of knowledge, presenting
reviewers with an inaccurate representation of a proposal's merit.

                                    Degree to which Action was Reckless

        OIG finds that the Subject acted recklessly. A reasonable person would be expected to
know that using verbatim text without demarcation was not acceptable. We believe the Subject's
lack of appreciation for scholarly standards in NSF proposals went beyond mere carelessness.
Given the Subject's lack of training, adequate guidance, and institutional oversight, we do not
believe his actions rise to a level of knowing. We therefore conclude that his actions were
distinctly reckless.

                                                      Pattern

        The plagiarism contained in the six NSF proposals clearly displayed a pattern of
plagiarism.


                                               Recommendation

Based on the evidence, OIG recommends NSF:

             •    send a letter of reprimand to the Subject informing him that NSF has made a
                  finding of research misconduct; 60           '                     ·




58
   45 C.F.R.. part 689.
59
   45 C.F.R § 689.3(b).
60
   A letter of reprimand is a Group I action (45 C.F.R §689.3(a)(l)(i)).


                                                          9
     CONFIDENTIAL
                                                                                                             CONFIDENTIAL


                  •    require the Subject to certify to OIG's Assistant Inspector General for
                       Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                       plagiarized material for 2 years; 61 and                  ·

                  •    require the Subject to complete an ethics course, which includes discussion on
                       citation practices, within 1 year and provide certification of its completion to
                       OIG. 62




61
     Certification by an individual is a final action that is comparable to the final ac_tions _liste~ in 45 C.F.R. §689.3(a).
62
     Completing an ethics course is a final action that is comparable to the final actwns listed m 45 C.F.R. §689.3(a).


                                                               10
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




        OFFICE OF THE
          DIRECTOR




 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Mr.-
         Re:      Notice of Research Misconduct Determination


 Dear
         It is our understanding that you represent Dr.               an employee o~
                           From 2007-2010, Dr.-either served as a Principal Investigator
 ("PI") on, or otherwise participated in the preparation of, six proposals submitted for funding to
 the National Science Foundation ("NSF")." As documented in the attached Investigative Report
 prepared by NSF's Office of Inspector General ("OIG"), these proposals contained plagiarized
 material.

 Research Misconduct and Proposed Sanctions
         Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
 or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
 defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
 without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
 requires that:

         ( 1) There be a significant departure from accepted practices of the relevant research
              community; and                                                    ·
         (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
         (3) The allegation be proven by a preponderance of evidence.

- 45 CFR § 689.2(c).

        The six proposals contained 275 unique lines of text, six figures, and 13 references
 copied from 34 source documents. By submitting proposals to NSF that copied the ideas or
 words of another without adequate attribution, as described in the OIG Investigative Report, Dr.
                                                                                               Page 2
-misrepresented someone else's work as his own. His conduct unquestionably constitutes
plagiarism. I therefore conclude that his actions meet the definition of "research misconduct" set
forth in NSF's regulations.

         Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
 reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, Dr. -plagiarism was committed recklessly and constituted a significant
 departure from accepted practices of the relevant research community. I am, therefore, issuing a
 finding of research misconduct against D r . -

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
 taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
 issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
 NSF; requiring that an institution or individual obtain special prior approval of particular
 activities from NSF; and requiring that an institutional representative certify as to the accuracy of
 reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l ).
 Group II actions include award suspension or restrictions on designated activities or
 expenditures; requiring special reviews of requests for funding; and requiring correction to the
 research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
 awards~ prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
 or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

         In determining the severity of the sanction to impose for research misconduct, I have
 considered the seriousness of the misconduct, and our determination that it was committed
 recklessly. I have also considered the fact that his misconduct was part of a pattern of plagiarism,
 as well as other relevant circumstances. 45 CFR § 689.3(b).

        After assessing the relevant facts and circumstances of this case, I am taking the
 following actions against D r . -

         (1) Until December 15,2013, Dr.-must provide certifications to the OIG that any
             proposal or report that he submits to NSF as a PI or co-PI does not contain
             plagiarized, falsified, or fabricated material; and

         (2) By December 15,2012, Dr.-must attend an ethics training course, which
             includes a discussion on citation practices, and must provide a certificate of
             attendance to the OIG that he has completed such a course.

         The certifications and certificate of attendance should be submitted in writing to OIG,
. Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
  22230.            -
                                                                                          Page 3
Procedures Governing Appeals
        Under NSF's regulations, Dr.-has 30 days after receipt of this letter to submit an
appeal ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any
appeal should be addressed to the Director at the National Science Foundation, 4201 Wilson
Boulevard, Arlington, Virginia 22230. If we do not receive his appeal within the 30-day period,
this decision will become final.

       For your information, we are attaching a      of the applicable regulations. If you have
any questions about the foregoing, please call             Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,




                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures
   Investigative Report
- 45 C.F.R. Part 689
